                                                       U.S. Department of Justice

                                                        United States Attorney

                                                        Eastern District of Pennsylvania
                                                        615 Chestnut Street

                                                        Suite 1250
                                                        Philadelphia, Pennsylvania 19106-4476
                                                        (215) 861-8200



                                                        March 17, 2009


                                          NEWS RELEASE

        United States Attorney Laurie Magid today announced the filing of an Indictment 1 against
George Susini. The indictment charges Susini conspiracy, wire fraud, and theft of funds from a
federally funded program. The indictment alleges that Susini participated in a conspiracy with
another Amtrak employee, to steal money from Amtrak. The scheme involved the manipulation of
Amtrak’s computer-based financial accounting system in a manner that cause computer generated
“credits,” that Amtrak was entitled to receive from national credit card companies, to be embedded
on Susini’s credit cards which he then used to pay personal expenditure. The fraud scheme resulted
in a loss to Amtrak of approximately $72,487.


                       INFORMATION REGARDING THE DEFENDANT

             NAME                            ADDRESS                          AGE OR YEAR OF BIRTH
 GEORGE SUSINI                      Raleigh, North Carolina                   unknown

       If convicted of the offenses in the indictment, Susini faces a maximum of 45 years of
imprisonment, a fine of $1.5 million, a special assessment of $300 and 5 years of supervised release.

       The case was investigated by Amtrak Office of Inspector General and is being prosecuted
by Assistant United States Attorney Floyd J. Miller.




       1
        An Indictment or Information is an accusation. A defendant is presumed innocent unless and until
proven guilty.

                                                   1
March 17, 2009
Page 2

 UNITED STATES ATTORNEY'S OFFICE         Contact: PATTY HARTMAN
 EASTERN DISTRICT, PENNSYLVANIA                   Media Contact
 Suite 1250, 615 Chestnut Street                  215-861-8525
 Philadelphia, PA 19106




      COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
                           http://www.usdoj.gov/usao/pae




                                     2
